Fact Sheet
Pricing Information Table
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

14.49% to 24.49%

APR for Balance Transfers

14.49% to 24.49%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.
APR for Cash Advances

25.24%
This APR will vary with the market based on the Prime Rate.

APR for Citi Flex Plan

14.49% to 24.49%
This APR will vary with the market based on the Prime Rate.

Penalty APR and When
it Applies

Up to 29.99% based on your creditworthiness. This APR will vary with the
market based on the Prime Rate.
This APR may be applied to your account if you:
1. Make a late payment or
2. Make a payment that is returned.
How Long Will the Penalty APR Apply? If your APRs are increased for
either of these reasons, the penalty APR may apply indefinitely.

Paying Interest

Your due date is at least 23 days after the close of each billing cycle.
We will not charge you interest on purchases if you pay your monthly
Citi Flex Plan Payment Amount plus your entire balance, excluding any
Citi Flex Plan balances, by the due date each month. If you do not pay
your monthly Citi Flex Plan Payment plus your entire balance, excluding
any Citi Flex Plan balances, by the due date each month, you will pay
interest on your purchases from the date they’re posted to your account.
We will begin charging interest on cash advances and balance transfers
on the transaction date. We will begin charging interest on a Citi Flex
Plan balance at the start of the billing cycle following the billing cycle
during which you created the Citi Flex Plan.

Minimum Interest Charge

If you are charged Interest, the charge will be no less than 50 cents.

How We Calculate
Your Balance

Daily Balance

Fees
Annual Membership Fee

None

Transaction Fees

• Balance Transfer: Either $5 or [3% – 5%] of the amount of each
transfer, whichever is greater.
• Cash Advance: Either $10 or 5% of the amount of each cash advance,
whichever is greater.
• Foreign Purchase Transaction: 3% of each purchase transaction
in U.S. dollars.

Penalty Fees

• Late Payment: Up to $40
• Returned Payment: Up to $40

Details About Your Interest Rates

Daily Periodic Rate

For Variable Rates:
U.S. Prime Rate Plus

Purchases

0.03970% to 0.06710%

11.24% to 21.24%

Balance Transfers

0.03970% to 0.06710%

11.24% to 21.24%

0.06915%

21.99%

0.03970% to 0.06710%

11.24% to 21.24%

Up to 0.08216%

Up to 26.74%

Cash Advances
Citi Flex Plan
Penalty
Variable rate APRs will not exceed 29.99%

Note: Balance Transfers and Flex Plans are made available at our discretion.
PROTECTIONS FOR ACTIVE DUTY SERVICE MEMBERS AND THEIR DEPENDENTS
Protections. Federal law provides important protections to members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in
connection with the credit transaction; any application fee charged (other than certain application fees for specified credit
transactions or accounts) and any participation fee charged (other than certain participation fees for a credit card
account). You are entitled to these protections if you are a Covered Borrower, as defined below.
Covered Borrower. You are a Covered Borrower if, in connection with the opening of your account, we determine you are
an active duty member of the Armed Forces (including active Guard and Reserve duty) or a dependent of an active duty
member. You will cease to be a Covered Borrower if we determine you are no longer an active duty member of the Armed
Forces (including active Guard and Reserve duty) or a dependent of an active duty member.
Oral Disclosures. If you are a Covered Borrower, you may obtain information related to your Account, including
information about these protections and your payment obligation, by calling 1-877-313-6762.

408

